No.T

]

IN THE
filed
SUPREME COURT OF THE UNITED STAT sN0V 1 2 2020
William Randolph King- Petitioner 1 supR^IgggggRK

vs.
O’Bell T. Winn-Respondent
ON PETITION FOR WRIT OF CERTIORARI TO
The Michigan Court of Appeals
PETITION FOR WRIT OF CERTIORARI

William Randolph King #118612
Petitioner in pro se
Saginaw Correctional Facility
9625 Pierce Road
Freeland, Michigan 48623

received
NOV 2 3 2020
[i]

•PFICE OF THE CLERK
SUPREME COURTf l/s

QUESTIONS PRESENTED FOR REVIEW

I.

Could reasonable jurists debate whether the prosecution
committed a Brady violation when it failed to disclose the
prior victim’s pubic hair found during DNA testing in a
timely manner that would allow the defense to capitalize on
its use?

II.

Could reasonable jurists debate whether the trial court erred
when it failed to instruct the jury that it should presume
that the DNA testing on the pubic hair would have been
unfavorable to the prosecution?

III.

Could reasonable jurists differ with the district court’s y
assessment that Petitioner’s sentence violated the Eighth";
Amendment?

V ) **

c.

»

LIST OF PARTIES IN COURT BELOW

The caption set out above contains the names of all the parties.

\

N

f

/

t

[iii]

TABLE OF CONTENTS

Page No.

Opinions Below

i

Jurisdiction

u

Constitutional and Statutory Provisions Involved

in

Statement of the Case

1-8

Reasons for Granting the Writ

8-9

Conclusion

13
Index to Appendices

appendix a: the April 22,2020, Judgment from the united states
DISTRICT COURT FOR THE EASTERN DISTRICT OF MICHIGAN DENYING
PETITIONER’S PETITION FOR WRIT OF HABEAS CORPUS.
appendix b: The September 9,2020, order from the Sixth Circuit
COURT OF APPEALS DENYING PETITIONER’S MOTION FOR CERTIFICATE OF
APPEALABILITY.

[iv]

,;

Opinions Below
The order of the federal court of appeals for the Sixth Circuit
denying Petitioner’s motion for a certificate of appealability was not
reported, but is set forth at Appendix A
The judgment of the United States District Court for the Eastern
District of Michigan denying Petitioner’s petition for a writ of habeas
corpus was not reported, but is set forth in Appendix B
A

1

Jurisdiction
The order for the federal court of appeals for the Sixth Circuit was
entered on September 9, 2020. Rehearing was not sought in that court.
Therefore, the jurisdiction of this Court is invoked under 28 USC
§1254(1)

ii

Constitutional Provisions and Statutes Involved
1. The Fifth Amendment, United States Constitution, provides
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
2. The Fourteenth Amendment, United States Constitution, ,
provides'
All persons born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and of
the State wherein they reside. No State shall make or enforce any
law which shall abridge the privileges or immunities of citizens of
the United States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.
3. The statutes under which Petitioner appealed were 28 U.S.C. §
2253(c), which providesUnless a circuit justice or judge issues a certificate of
appealability, an appeal may not be taken to the court
of appeals from—
(A) the final order in a habeas corpus proceeding in
which the detention complained of arises
out
of
process issued by a State court; or;
(B) the final order in a proceeding under section
2255;
m

A certificate of appealability may issue under
paragraph (l) only if the applicant has made a
substantial showing of the denial of a constitutional
right.
The certificate of appealability under paragraph (l)
shall indicate which specific issue or issues satisfy the
showing required by paragraph (2);
and
4. 28 U.S.C. §1291, which provides:
The courts of appeals (other than the United States i
Court of Appeals for the Federal Circuit) shall have
jurisdiction of appeals from all final decisions of
district courts of the United States, the United States ■ ~
District Court of the Canal Zone, the District Court of
Guam, and the District Court of the Virgin Islands,
except where a direct review may be had in the
Supreme Court. The jurisdiction of the United States
Court of Appeals for the Federal Circuit shall be
limited to the jurisdiction described in sections
1292(c) and (d) and 1295 of this Title [28 U.S.C.
§§ 1292(c) and (d) and 1295]

IV

Table of Authorities Cited
CasesNo.

Page

Atkins v Virginia, 536 U.S. 304 (2002)

16, 18, 19, 20, 21

Cooper Indus vLeatherman Tool Group, 532 U.S. 424 (2001)

19

Barker v. Yukins, 199 F.3d 867 (6th Cir. 1999)

13

Brady vMaryland, 373 U.S. 83 (1963)

9, T3 ■-

Enmund vFlorida, 458 U.S. 782 (1982)
Graham v Florida, 560 U.S. 48 (2010)

-18, 19
h .

< ' < /, 16, 20 -

Haliym v Mitchell, 492 F3d 680 (6th Cir. 2007)

"16

Harmelin vMichigan, 501 U.S. 957 (1991)

19‘

Kennedy vLouisiana, 554 U.S. 407 (2008)

16

Kyles v Whitley, 514 US 419, 429 (1995)

13

Maryland vDyson, 527 US 465 (1999)

9

O’Hara vBrigano, 499 F3d, 502 (6th Cir. 2007)

12

Penry vLynaugh, 492 U.S. 302, 319 (1989)

19

Ramirez v Castro, 365 F 3d 755 (CA 9 2004)

19

Roper v Simmons, 543 U.S. 551 (2005)

16

Sawyer vHofbauer, 299 F3d 606 (6th Cir. 2002)

12

Solem vHelm, 463 U.S. 277 (1983)

20
[V]

- >

r.

United States v Garner, 507 F3d 399 6th Cir. 2007)

12

United States v Larson, 558 F Sup 2d 1103 (D. Mon 2008)

20

United States vMoore, 643 F 3d 451 (CA 6 2004)

20

United States v Strayer, No. 8-CR-482, 2010 U.S. Dist LEXIS 62719,
21
2010 WL 2560466 (D. Neb, June 24, 2010)
-i

Weems v United States, 217 U.S. 349 (1910)

18 - •

Constitution, Statutes, Regulations, and RulesS Ct R 10(a)

9

SCtR 16.1

9

[vi]

*

■

Table of Contents for the Appendix
APPENDIX a: The decision of the United States District Court for the Eastern
District of Michigan denying Petitioner habeas relief,
APPENDIX B; Sixth Circuit’s Judgment on Appeal.

*< .

Statement of the Case
In September 2016, a jury in the Wayne County Circuit Court
convicted Petitioner of first-degree criminal sexual conduct, Mich Comp
Laws §750.520b(l)(c), kidnapping, Mich Comp Laws §750.349, and
third-degree criminal sexual conduct, Mich Comp Laws, §750.520(l)(b).
The state trial court sentenced him as a fourth time habitual felony
offender to 40 to 70 years in prison for the first-degree criminal sexual
conduct conviction and to lesser concurrent terms forr the > other!
convictions.
The charges against Petitioner arose from a cold-case sexual
assault investigation that took place in 2005. Then, the complainant,
Erin Long, flagged down police officers in August of that year, telling
them that she had just escaped from a van after being raped. The police
took Long to a local hospital, where she was treated and samples were
taken for a rape kit. The rape kit was sent to the Detroit Police
Department (DPD), where it sat untested for almost ten years.
In 2015, the Michigan State Police (MSP) agreed to assist the
DPD with its large backlog of untested rape kits. The MSP sent Long’s
kit to a private firm, Bode Testing Group, for testing, and Bode returned
1

i

, *>

the profile to the MSP, who then ran the profile through the Federal
Bureau of Investigation’s CODIS DNA database. The sample matched
Petitioner’s CODIS profile.
Police then obtained a known DNA sample from Petitioner, which
also matched the sperm sample from Long’s kit.
Around the same time, a second lab technician investigating' a
different DPD case identified Petitioner as a match to a DNA sample
taken from another complainant, Nichole McClintock.

<.

^

McClintock reported being raped by two men in Detroit on August
16, 2014.
A foreign pubic hair was also found during McClintock’s rape
examination. That hair, however, was not tested at the time, because,
unlike the sample that matched Petitioner, it required more specialized
mitochondrial DNA testing.
The Wayne County Prosecutor’s Office charged Petitioner with six
counts of criminal sexual conduct and kidnapping with respect to Long’s
allegations. But that Office decided not to charge Petitioner with
assaulting McClintock. Instead, that Office added as a MRE 404(b)
other-acts witness to Long’s case.
2

■

In both cases, the Wayne County Prosecutor’s theory was that the
Petitioner demonstrated a common scheme or plan by targeting
vulnerable young women found in public places who were drug abusers.
The defense’s theory, however, was that both Long and McClintock were
prostitutes with whom Petitioner had had consensual sex.
Prior to trial, the prosecution disclosed to the defense the:
existence of the foreign pubic hair that was found in McClintock’s rape kite. Petitioner’s counsel then asked the trial teourt to'order* a-lab >to
conduct a forensic evaluation of the hair on the basis that the results of
the test may uncover exculpatory evidence.
It was the defense’s belief that the foreign hair, once tested, would
support its theory that Long and McClintock were sex workers who had
been having consensual sex with Petitioner, as well as with other'
people. In fact, Petitioner claimed that he had paid Long for consensual
sex and that he and his son had had consensual sex with McClintock.
From the outset, the prosecution claimed that it believed the pubic
hair had already been submitted for testing, but because the MSP did
not have the capability to conduct the test itself, the hair had to be sent

to the FBI.
3

The prosecution further claimed that it did not know how long it
would take for the FBI to conduct the test, arguing that, in any event,
the test results would not be exculpatory because McClintock had
reported being raped by two men and a pubic hair from a second man
would not exonerate Petitioner.
Believing itself that the hair evidence would not be relevant, the
trial court, nonetheless, entered an order requiring the hair be tested.
On the first morning of trial, the prosecution,provided to defense, a.
report from the MSP that the pubic hair had still not been-tested— The defense then moved to exclude McClintock’s other-acts
testimony due to the failure to test the hair as the court had previously
ordered. But when the prosecution mentioned to the state trial court
how the hair had been sent out and the testing had not yet been
completed,

the

court denied the

defense’s motion to exclude

McClintock’s testimony, indicating its intention to proceed with trial
that day.
The following morning, defense counsel requested a jury
instruction directing the jury to presume that the testing of the hair
would have been unfavorable to the prosecution, but the trial court
4

denied the request.
At Petitioner’s trial, Long testified that Petitioner had forcibly
sexually assaulted her multiple times after she accepted a ride in his
van. Long explained that she had only agreed to the ride because there
was another woman inside the van, but Petitioner later dropped the
woman off at a store and drove to a secluded spot at a gas station where
the alleged assault took place. Then, according to Long, Petitioner,
picked up several other men and drove to an industrial area of Detroit
where Petitioner and the men stole copper piping from a building. ‘
Long testified that Petitioner then sexually assaulted her a second
time in a residential neighborhood while the other men unloaded the
stolen materials. When Petitioner supposedly suggested that all of the
other men would be given a turn with Long. Long said she ran from the;
van, where she later flagged down the police officers.

■s:

Petitioner testified in his own defense, where he said that he
frequently did business with prostitutes, whom he would compensate
with money and drugs in exchange for sex. He admitted to having had
sex with Long and McClintock, to which he said that the sex was
consensual in both cases.
5

The jury found Petitioner guilty of two counts of criminal sexual
conduct and kidnapping.
Prior to sentencing, the prosecutor received the results of the DNA
analysis that had been performed on the foreign pubic hair found
during McClintock’s rape examination. Those results showed that the
hair belonged to a man named Rondal Lydiel Topps, who did not have

1

any connection to Long’s trial or Petitioner’s conviction.
At the sentencing hearing, the prosecutor gave Petitioner’s •>' • 4
counsel a copy of the test results showing that the hair belonged to
Topps. Petitioner’s counsel was outraged and indicated that he would
move for a new trial based that new evidence, but counsel never filed
the motion.
On appeal, Petitioner raised the following three claims in his
brief
Mr. King was denied due process when potentially
exculpatory evidence, which supported his theory of
the case, was not produced before or during trial.
Mr. King was entitled to have a jury given a negative
inference instruction regarding the material the
government had in its possession for years, but failed
to test.
Defendant-Appellant is entitled to be resentenced as
6

~

his current sentence is contrary to Const 1963, art 1, §
16, and his guidelines were incorrectly scored.
The Michigan Court of Appeals affirmed Petitioner’s conviction in an
unpublished opinion. See People v King, 2018 WL 1972792 (Mich. Ct.
App. Apr. 26, 2018).
Petitioner subsequently filed an application for leave to appeal in
the Michigan Supreme Court raising the same claims that he raised-in
the Michigan Court of Appeals, and the Michigan Supreme Court?
denied the application in a standard form order. See People v. King, 919
NW2d 58 (Mich 2018).
Petitioner filed a federal petition for a writ of habeas corpus,
raising three claims- (I) the prosecution withheld exculpatory evidence
from the defense when it failed to timely submit a pubic hair for DNA
testing! (II) the trial court erred when it failed to instruct the jury to2
presume the test results on the pubic hair would have been unfavorable
to the prosecution, and (III) the trial court incorrectly scored the
sentencing guidelines and sentenced him in violation of the Eighth
Amendment.
The district court entered a final, appealable judgment in this
matter on April 22, 2020, that denied Petitioner relief on his petition.
7

1 . -J " -

' fc

(See App “B“)
In that judgment, the district court denied Petitioner a certificate
of appealability, but decided to grant him permission to appeal in forma
pauperis.
On or about April 18, 2020, Petitioner filed his notice of appeal.
Petitioner never received the order from the district court denying his
notice of appeal. But he did receive confirmation from the Sixth Circuit *
clerk of receipt of his filing and recommendation to file a motion for a w
certificate of appealability, with which Petitioner complied. On
September 9, 2020, the Sixth Circuit clerk, however, entered an order
denying Petitioner’s motion. (App “A,“ 6).
Reasons For Granting The Writ
Petitioner exhausted three claims through the Michigan courts,
alleging a Brady violation, an adverse-inference instructional error, and an Eighth Amendment sentence violation. The Michigan Court of
Appeals adjudicated the claims and affirmed. Both the federal district
court and the Sixth Circuit court of appeals ruled that Petitioner’s
claims were contrary to or an unreasonable application of clearly
established federal law or based on an unreasonable determination of

8

the facts. Petitioner, however, disagreed and maintained that the
opposite is true. He urges this Court to grant summary reversal (“GVR”). See S
Ct R 10(a)( The Court may "summaiy reverse" if lower court federal court
decisions "ha[ve] so far departed from the accepted and unusual course of judicial
proceedings, or sanctioned such a departure by a lower court, as to call for an
exercise of [the Supreme] Court's supervisory power."; S Ct R 16.1("order-

■

[disposing of the certiorari petition] may be a summary disposition on the merits"); „
f£.

Maryland v Dyson, 527 US 465, 465 n 1 (1999)(per-curiam)("summary reversal
does not decide any new or unanswered question of'law, but simply-'corrects^ a ■
lower court's demonstrably erroneous application of federal law").
ARGUMENTS
I.

Could reasonable jurists debate whether the prosecution
committed a Brady violation when it failed to disclose the prior
victim’s pubic hair found during DNA testing in a timely
manner that would allow the defense to capitalize on its use?
Petitioner maintains that the answer to this question is “yes:”
In his habeas petition, Petitioner alleged, as he did throughout the

state courts, that the prosecution violated his due process rights under
the Supreme Court’s decision in Brady v Maryland, 373 U.S. 83 (1963)
when it withheld exculpatory evidence by failing to timely submit the
pubic hair found during McClintock’s rape kit for DNA testing.

9

■ Vs

r *

i iw

McClintock’s testimony was admitted as other-acts evidence, serving as
an essential pillar of the prosecution’s case. As noted above, the result of
the testing had not been completed at the time of trial, and when
completed, the pubic hair was found not to be from Petitioner.
Petitioner contended that if the testing had been completed before trial,
he could have better questioned the prior victim at trial and utilized the •
identified person from whom the hair came as a witness. Because the’
Michigan Court of Appeals did not find a Brady violation, Petitioner - .
t ’v

>*

sought federal habeas relief.
The district court, faced with Petitioner’s compelling argument in
support of his claim, concluded, in pertinent part, thatThe Michigan Court of Appeals’ decision was not
contrary to, or an unreasonable application of, clearly
established federal law. It was not unreasonable for
the state appellate court to conclude that the
prosecutor did not violate Brady because the only
evidence that the prosecutor had at the time of trial—
that a foreign hair was recovered from McClintock’s
rape kit—was disclosed to the defense. Evidence that
the hair belonged to Topps was not suppressed
because that evidence did not exist at the time of trial.
And when the test results on the hair came back and
revealed that the hair belonged to Topps, that
evidence was also disclosed to the defense. Moreover,
King has not cited any clearly established Supreme
Court law that under these circumstances, a
prosecutor had a duty to test the hair at issue any
10

sooner than the prosecution did. Finally, King has not
shown that the Michigan Court of Appeals’
unreasonably concluded that the prosecution did not
act in bad faith. Indeed, King’s own counsel stated on
the record that the prosecution did not act in bad faith
with respect to the testing of the hair.
Dist Ct. Op, pp. 11-12.
Then, the Sixth Circuit, on appeal denied Petitioner relief by
concludingKing does not dispute that the prosecution did not
have the DNA test results in its possession before
trial. He therefore cannot satisfy the first Brady
prong- the prosecution could not have suppressed
evidence that it did not have in its possession.
Similarly . . . King’s counsel conceded that the
prosecution did not act in bad faith when it delayed
testing the pubic hair found on McClintock. And King
cannot show that the evidence was material or would
have been favorable to his defense insofar as his DNA
was also collected from McClintock’s vagina- the
presence of another individual’s pubic hair on
McClintock would have little or no bearing on his
guilt with respect to his sexual assault upon the
victim in his case. On this record, no reasonable jurist
could debate the district court’s conclusion that the
Michigan Court of Appeals’ adjudication of King’s
Brady claim was not contrary to or an unreasonable
application of clearly established federal law or based
on an unreasonable determination of the facts.

^

(App “ ,” 3-4).

Reasonable jurists, contrary to the findings of the Sixth Circuit,
however, could debate whether the district court’s assessment of
11

Petitioner’s claim was debatable or wrong, in light of Murphy and
Slack. Indeed, this Court has found a prosecution’s suppression of a
negative DNA test result violates Brady. See Sawyer v Hofbauer, 299
F3d 606 (6th Cir. 2002)(negative DNA test result was material to
petitioner’s guilt or innocence and it was reasonably probable that
disclosure ), and when the prosecution failed to disclose Brady evidence
m a timely manner). United States v Garner; 507 F3d 399 6th Cir.
2007)(the prosecution’s failure to disclose cell phone records in a timely:
manner that would permit the defense to utilize the evidence did result^
in a Brady violation).
Petitioner is cognizant that a belated disclosure of evidence
violates Brady only where a petitioner can show that the delay itself
caused prejudice. O’Hara v Brigano, 499 F3d, 502 (6th Cir. 2007). He
met that standard when he showed how he needed the suppressed
evidence to impeach McClintock’s testimony and to undermine the
prosecution’s theory of the case. Moreover, prejudiced is established by
the fact that Petitioner could have utilized the identified person from
whom the hair came as a witness, had he received the testing results in
time.
12

Contrary to the lower courts’ conclusion, the delay and its
prejudicial effect upon Petitioner, is attributable to the prosecution. The
state court record establishes that any blame for the failure to subject
the pubic hair to testing in a timely manner fell to the MSP, who sat on
the untested evidence for nearly a decade, as the prosecution explained
to the state trial court. If so, then the prosecution must bear the
responsibility for the MSP’s misconduct. Kyles v Whitley; 514 US 419,
429 (l995)(misconduct of the police is charged to the prosecution). In ; [
addition to that, both Michigan Court of Appeals and the district court
erred when it premised the validity of Petitioner’s claim on whether or
not he could prove the prosecution acted in bad faith. However, Brady’s
landmark decision stands for the proposition that “the suppression by
the prosecution of evidence favorable to an accused upon request
violates due process where the evidence is material either to guilt or
punishment, irrespective of the good faith or bad faith of the
prosecution.” Brady, 373 U.S. at 87.
II.

Could reasonable jurists debate whether the trial court erred
when it failed to instruct the jury that it should presume that
the DNA testing on the pubic hair would have been unfavorable
to the prosecution?
Petitioner alleged in his habeas petition, as he did throughout the
13

state courts, that, because the prosecution failed to test and provide the
results of all of the DNA evidence from the McClintock’s rape kit, the
state trial court erred when it failed to provide a negative inference jury
instruction. The Michigan Court of Appeals rejected the claim on the
basis that the trial court did not hold that the prosecution acted in bad
faith when it did not produce the testing results by the time of trial.
Petitioner sought federal habeas relief based on the Michigan Court of
Appeals’ unreasonable adjudication. The district > court, however, ,
determined that there was no error in the state court’s refusal to find
bad faith on the part of the prosecution. The Sixth Circuit agreed, and
determined thatKing’s counsel admitted that the prosecution did not
act in bad faith when it did not produce before trial
the DNA results from the pubic hair that was
collected from McClintock. And King has not shown
that omitting an adverse inference instruction with
respect to this unproduced evidence “so infected the
entire trial that the resulting conviction violates due
process.” Estelle v McGuire, 502 U.S. 62, 72
(1991)(quoting Cupp v Naughten, 414 U.S. 141, 147
(1973)). No reasonable jurist therefore could debate
the district court’s conclusion that the Michigan Court
of Appeals’ rejection of this claim was not contrary to
or an unreasonable application of clearly established
federal law or based on an unreasonable
determination of the facts.
14

■

(App “4).
Reasonable jurists, however, could differ with the lower courts’
assessment. For instance, this Court found that a state court’s failure to
give an instruction based on the court’s erroneous factual finding
~ •
'- r

t

warranted habeas relief. See e.g., Barker v. Yukins, 199 F.3d 867 (6th
Cir. 1999)(The failure to instruct on defendant’s -right to use deadly _
force to resist a rape deprived defendant of a meaningful opportunity to >
present a defense where the general self:defense instruction gave the
jury the ability to enter a guilty verdict while believing that defendant
had been resisting a rape, but that it was questionable whether the
rape would have led to death or serious injury).
III.

Could reasonable jurists differ with the district court’s
assessment that Petitioner’s sentence violated the Eighth
Amendment?
Petitioner maintains that the answer to this question is “yes.”
Petitioner alleged in his habeas petition, as he did throughout the

state courts, that his sentence is cruel and unusual because the term
exceeds his natural life expectancy, and thus, the sentence equates to a
life sentence without parole, and the trial court failed to consider
mitigating factors. Both the district court and the Sixth Circuit

15

concluded that the claim does not merit relief. Contrary to that
conclusion, however, reasonable jurists could disagree with that
assessment as wrong or debatable.
For instance, one of the mitigating factors that the state trial
court failed to consider was Petitioner’s mental health history. The
presentence investigation report documented his diagnosis of bipolar
disorder and “other mental health problems.” Meanwhile, the Sixth
Circuit itself had held that mitigating evidence may include evidence
that a defendant potentially suffered from a mental defect. Haliym v
Mitchell, 492 F3d 680, 712 (6* Cir. 2007).
Furthermore, Petitioner’s psychiatric history implicated Eighth
amendment principles of lesser culpability similar to those suffering
with intellectual disabilities, as is articulated in Atkins v Virginia, 536
U.S. 304 (2002), Roper v Simmons, 543 U.S. 551 (2005)(invalidating
death penalty for defendants who committed their crimes before the age
of 18), and Kennedy v Louisiana, 554 U.S. 407 (2008)(while death
penalty may be appropriate for murder, it is constitutionally
inappropriate for the rape of a child), Graham v Florida, 560 U.S. 48
(2010)(invalidating the sentence of life without parole for juvenile who
16

committed attempted robbery and a serous assault), that undermines
the trial court’s previous determinations regarding his culpability and
competency.
For example, in Atkins, the United States Supreme Court
declared that the execution of mentally retarded defendants, those
people with intellectual disabilities, is unconstitutional. The Court
explained that the reason the Eighth Amendment is violated with the ..
use of the death penalty on those convicted defendants is that
defendants with intellectual disabilities must be viewed as less culpable
than other defendants.
Mentally retarded persons frequently know that
difference between right and wrong and are
competent to stand trial. Because of their
impairments, however, by definition they have
diminished capacities to understand and process
information, to communicate, to abstract from
mistakes and learn from experience, to engage in .
logical reasoning to control impulses, and to
understand the reactions of others. There is no
evidence that they are more likely to engage in
criminal conduct than others, but there is abundant
evidence that they often act on impulse rather than
pursuant to a premeditated plan, and that in group
settings they are followers rather than leaders. Their
deficiencies do not warrant an exemption from
criminal sanctions, but they do diminish their
personal culpability.
17

t. •

The United States Supreme Court’s reasoning in Atkins for
justifying this conclusion proceeded through four steps. First, the Court
identified the normative punitory principle — what it referred to as a
“precept of justice” — “that punishment for crime should be graduated
and proportioned to [the] offense.” Id at 311 (quoting Weems v United
States, 217 U.S. 349, 367 (1910)). Second, the Court specified that the
graduation of proportionality requirements mean that “criminal
•

f

culpability must be limited to [the defendant’s] participation in [the
crime], and [the defendant’s] punishment must be tailored to his
personal responsibility and moral guilt.” Id, at 312'313 (quoting
Enmund v Florida, 458 U.S. 782, 801 (1982)). Third, the Court noted
that while mentally retarded individuals’ deficiencies “do not warrant
an exemption from criminal sanctions . . . they do diminish their
personal culpability.” Id, at 318. Fourth, the Court recognized that if the
retributive purpose of punishment Atkins faced was to be effectuated,
the severity of the punishment levied against him must necessarily
depend on his culpability. Id, at 319. In order to ensure that the
punishment in Atkins was constitutionally proportioned to the
defendant’s personal culpability, the Court announced that the State of
18

Virginia could not execute Atkins, whose diminished moral culpability
was established by the evidence of his mental retardation. Id, at 319320.

Petitioner, in his petition, was alleging that an Atkins type of
protection extend to his sentencing procedure. In the past, the United
States Supreme Court has frequently referenced ,a defendant’s

.

culpability in Eighth Amendment cases. See e.g., Cooper Indus v
Leatherman

Tool Group,

532 U.S. 424, 435 (2001)(recognizing

culpability as important criteria for Eighth Amendment excessive fines
claims); Harmelin v Michigan, 501 U.S. 957, 1022 (l99l)(White, J.,
dissenting)(“[I]n evaluating the gravity of the offense, it is appropriate
to consider the harm caused or threatened to the victim or society ...
and the culpability of the offender, including the degree of requisite
intent and the offender’s motive . . . “); Penry v Lynaugh, 492 U.S. 302,
319 (I989)(“punishment should be directly related to the personal
culpability of the criminal defendant”), overruled on other grds by
Atkins, 536 U.S. at 304; Enmund 458 U.S. at 801 (defendant’s
“punishment must be tailored to his personal responsibility and moral
guilt”); Ramirez v Castro, 365 F 3d 755 (CA 9 2004)(“[T]he [Supreme]
19

...

t

V
Court [in Solem v Helm, 463 U.S. 277 (1983)] further endorsed
consideration of other accepted principles that courts may apply in
measuring the harm caused or threatened to the victim or society, such
as . . . the offender’s culpability”). Similarly, like the mentally retarded
individual described in Atkins, Petitioner’s “deficiencies do not warrant
an exemption from criminal sanctions, but they do diminish [his]
personal culpability.” Id.

.

-

Although courts generally have interpreted Atkins to apply only to
capital sentences, “[t]his does not mean that a defendant s culpability is
irrelevant in non'capital cases.” United States v Moore, 643 F 3d 451,
456 (CA 6 2004)(relying on Solem and Graham). That is because Eighth
amendment principles regarding lesser culpability have been equally
applied to capital and non-capital cases. In fact, Graham involved a
term of imprisonment of life without parole for an attempted robbery
and a serious assault. The United States Supreme Court had declared
that term of imprisonment for a juvenile cruel and unusual, and
i

therefore unconstitutional. For that reason, several federal court
decisions have extended Atkins’s doctrine to non-capital crimes. See
e.g ., United States v Larson, 558 F Sup 2d 1103 (D. Mon 2008)(five-year
20

\
!
\

minimum held unconstitutional under the Eighth Amendment, as
applied to mentally retarded 21 year old); United States v Strayer, No.
8-CR-482, 2010 U.S. Dist LEXIS 62719, 2010 WL 2560466 (D. Neb,
June 24, 2010)(granting below guidelines sentence for a 25 year old
whose psychological evaluation concluded that he was emotionally close
to an adolescent and also had other mental health problems). Petitioner
just believed that Atkins’ doctrine should have extended to his case as
well, and warranted a consideration the list of mitigating factors that
warranted a more reasonable sentence, one that affords him an
opportunity to become eligible for parole during his lifetime. He prays
that this Court agrees.

21

I

•4

7

\

CONCLUSION
Because the claims contained in his federal habeas petition are
not only debatable, but also implicate his constitutional rights,
Petitioner, WILIAM RANDOLPH KING, asks that this Court to reverse
the Sixth Circuit’s denial of his motion for certificate of appealability
and to grant this petition for certiorari as to all of his appellate issues
because he, just like the petitioner in Miller-El, has proven “’something
more than the absence of frivolity,’ or ‘the existence of mere good faith
on his or her part.’”
Respectfully submitted,

Dated-

_ I. V

1\

j...

»

i*.'

i 1

k. '

.

WILLIAM RANDOLPH KING #118612
Saginaw Correctional Facility
9625 Pierce Road
Freeland, Michigan 48623

22

